Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




   THE CENTERS FOR MEDICARE
  & MEDICAID SERVICES SHOULD
   IMPROVE OVERSIGHT FOR THE
TRANSFER OF TRUE OUT-OF-POCKET
  COSTS BETWEEN PART D PLANS

  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Gloria L. Jarmon
                                                Deputy Inspector General

                                                      December 2013
                                                      A-05-12-00053
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY

Medicare Part D and its enrollees could have saved approximately $1.6 million in 2010 if the
Centers for Medicare & Medicaid Services had provided adequate oversight to ensure the
transfer of all true out-of-pocket costs for enrollees who changed prescription drug plans.

WHY WE DID THIS REVIEW

In 2010, expenditures for Medicare’s Part D prescription drug program totaled more than
$62 billion and more than 34 million Medicare beneficiaries were enrolled (enrollees) in Part D
prescription drug plans (plans). Medicare Part D rules require Part D sponsors (sponsors) to
track enrollees’ true out-of-pocket (TrOOP) costs. The appropriate transfer of TrOOP costs is
essential for sponsors to correctly manage the Part D benefit. The amount of enrollees’ TrOOP
costs affects their cost sharing, as well as the Centers for Medicare & Medicaid Services (CMS)
payments to sponsors. A prior Office of Inspector General review determined that a Part D
sponsor in 2008 and 2009 did not always transfer TrOOP costs when an enrollee changed plans.
In January 2009, CMS implemented new procedures for the automated transfer of TrOOP costs
between plans. We conducted a nationwide review to determine if TrOOP transfer issues existed
after the implementation of these new procedures.

The objective of this review was to determine whether Part D sponsors transferred TrOOP costs
in accordance with Federal requirements for enrollees who changed plans during the 2010
coverage year.

BACKGROUND

TrOOP costs are prescription drug costs paid by enrollees, or by specified third parties on the
enrollees’ behalf, that count toward the annual out-of-pocket threshold that enrollees must meet
before their catastrophic drug coverage begins. Sponsors are responsible for tracking and
transferring enrollees’ TrOOP costs as enrollees change plans throughout the coverage year. The
TrOOP facilitator is a CMS contractor that assists sponsors with the transfer of TrOOP-related
data if an enrollee changes plans during the coverage year. Effective January 1, 2009, sponsors
must use the Financial Information Reporting (FIR) system to transfer TrOOP balances and
gross covered drug costs whenever an enrollee makes an enrollment change during the coverage
year. Part D requires that for every prescription filled, sponsors must submit an electronic
summary record, called the prescription drug event (PDE), to CMS. The PDE record contains
prescription drug cost and payment data.

WHAT WE FOUND

Sponsors did not always transfer TrOOP costs in accordance with Federal requirements. For 24
of the 100 enrollees we reviewed in a stratified random sample, sponsors transferred TrOOP
costs correctly. For the remaining 76 enrollees, sponsors did not transfer TrOOP costs in
accordance with Federal requirements. Specifically:




CMS Should Improve Oversight for the Transfer of True Out-of-Pocket Costs Between Plans (A-05-12-00053)   i
     •    for 27 enrollees, the TrOOP facilitator did not initiate FIR transactions to assist sponsors
          in transferring TrOOP balances between prescription drug plans;

     •    for 26 enrollees, the previous plan sponsors did not properly update FIR information
          because the sponsors processed prescription drug claims late and underreported TrOOP
          costs; and

     •    for 23 enrollees, the subsequent plan sponsors did not properly update their systems with
          reported FIR information.

We estimated that the enrollees and the Federal Government (on behalf of the enrollees)
overpaid their shares of the drug costs by $1,091,154 and $479,357 respectively, while the
sponsors underpaid their respective share of the drug costs by $1,570,511. Had the sponsors
transferred TrOOP costs in accordance with Federal requirements, the enrollees and Federal
Government would have saved a total of $1,570,511 in 2010.

CMS and the TrOOP facilitator did not have adequate procedures to ensure that (1) FIR
transactions are initiated to transfer TrOOP costs between plans, (2) all FIR transactions are
complete, and (3) plans are properly updating PDE records. CMS did not provide adequate
oversight of sponsors to ensure the transfer of all TrOOP costs when enrollees changed
prescription drug plans.

WHAT WE RECOMMEND

We recommend that CMS:

    •    transfer TrOOP costs in accordance with Federal requirements for enrollees who change
         plans, which would have saved the enrollees $1,091,154 and the Federal Government
         $479,357 in 2010 and

    •    implement controls to:

            o ensure the TrOOP facilitator initiates FIR transactions to transfer TrOOP balances
              from (1) plans providing services to non-enrollees and (2) previously rejected
              FIRs that have since been corrected,

            o compare FIR to PDE records to determine which FIR transactions are incomplete
              and require plan resubmission, and

            o ensure subsequent plan sponsors are properly updating PDE records with reported
              FIR information.

CMS COMMENTS

In written comments on our draft report, CMS concurred with our recommendations and
described corrective actions it had taken and planned to take.


CMS Should Improve Oversight for the Transfer of True Out-of-Pocket Costs Between Plans (A-05-12-00053)   ii
                                                     TABLE OF CONTENTS

INTRODUCTION ...........................................................................................................................1

           Why We Did This Review ...................................................................................................1

           Objective ..............................................................................................................................1

           Background ..........................................................................................................................1
                 Medicare Part D Prescription Drug Program ...........................................................1
                 Standard Prescription Drug Coverage .....................................................................2
                 Prescription Drug Event Data ..................................................................................2
                 Coordination of Prescription Drug Benefits and
                   Financial Information Reporting...........................................................................2

           How We Conducted This Review........................................................................................3

FINDINGS .......................................................................................................................................3

           True Out-of-Pocket Facilitator Did Not Inititate All
            Financial Information Reporting Transactions .................................................................4

           Sponsors Processing Late Claims and Underreporting True Out-of-Pocket Costs
            Resulted in Incomplete Financial Information Reporting Information ............................5

           Sponsors Did Not Properly Update Their Systems With Data From the
            Financial Information Reporting System ..........................................................................5

           Conclusion ...........................................................................................................................6

RECOMMENDATIONS .................................................................................................................6

CMS COMMENTS .........................................................................................................................7

APPENDIXES

           A: Defined Standard Benefit for Part D Enrollees in 2010 ................................................8

           B: Audit Scope and Methodology.......................................................................................9

           C: Sample Design and Methodology ................................................................................11

           D: Sample Results and Estimation....................................................................................12

           E: Federal Requirements ...................................................................................................13

           F: CMS Comments ...........................................................................................................16




CMS Should Improve Oversight for the Transfer of True Out-of-Pocket Costs Between Plans (A-05-12-00053)                                          iii
                                           INTRODUCTION

WHY WE DID THIS REVIEW

In 2010, expenditures for Medicare’s Part D prescription drug program totaled more than
$62 billion and more than 34 million Medicare beneficiaries were enrolled (enrollees) in Part D
prescription drug plans (plans). Medicare Part D rules require Part D sponsors (sponsors) to
track enrollees’ true out-of-pocket (TrOOP) costs. The appropriate transfer of TrOOP costs is
essential for sponsors to correctly manage the Part D benefit. The amount of enrollees’ TrOOP
costs affects their cost sharing, as well as the Centers for Medicare & Medicaid Services (CMS)
payments to sponsors. A prior Office of Inspector General review 1 determined that a Part D
sponsor in 2008 and 2009 did not always transfer TrOOP costs when an enrollee changed plans.
In January 2009, CMS implemented new procedures for the automated transfer of TrOOP costs
between plans. We conducted a nationwide review to determine if TrOOP transfer issues existed
after the implementation of these new procedures.

OBJECTIVE

The objective of this review was to determine whether Part D sponsors transferred TrOOP costs
in accordance with Federal requirements for enrollees who changed plans during the 2010
coverage year.

BACKGROUND

Medicare Part D Prescription Drug Program

Title I of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003
amended Title XVIII of the Social Security Act (the Act) by establishing the Medicare Part D
prescription drug program. Under Part D, which began January 1, 2006, individuals entitled to
benefits under Part A or enrolled in Part B may obtain drug coverage. CMS contracts with
sponsors to provide prescription drug coverage for eligible individuals. Each contract between
CMS and a sponsor may include many plan benefit packages.

TrOOP costs are prescription drug costs paid by enrollees, or by specified third parties on the
enrollees’ behalf, that count toward the annual out-of-pocket threshold that enrollees must meet
before their catastrophic drug coverage begins. Sponsors are responsible for tracking and
transferring enrollees’ TrOOP costs as enrollees change plans throughout the coverage year.
Tracking and transferring TrOOP costs involves the coordination of many entities and data
systems. The amount of enrollees’ TrOOP costs affects the cost sharing, as well as the CMS
payments to sponsors.




1
 WellPoint, Inc. Did Not Always Calculate Enrollees’ True-Out-Of-Pocket Costs in Accordance With Federal
Requirements, A-05-11-00018, May 29, 2012.



CMS Should Improve Oversight for the Transfer of True Out-of-Pocket Costs Between Plans (A-05-12-00053)    1
Standard Prescription Drug Coverage

Sponsors are required to offer a standard prescription drug benefit or an alternative benefit that is
“actuarially equivalent” to the standard benefit. Sponsors may also offer enhanced plan benefit
packages. Most enrollees are responsible for certain costs, which may include a monthly
premium, an annual deductible, and coinsurance. However, enrollees with limited income are
eligible to receive a low-income subsidy to pay for some or all of these costs. Low-income
subsidy payments are included in an enrollee’s TrOOP costs.

In 2010, the standard drug benefit required enrollees to pay a maximum deductible of $310. In
the initial phase of the Part D benefit, after this deductible was paid, enrollees contributed
25-percent coinsurance toward their drug costs and the plan paid the remaining 75 percent until
combined enrollee and plan payments reached $2,830. After that limit was reached, enrollees
entered the coverage gap phase of the benefit, in which they were responsible for 100 percent of
their drug costs. The catastrophic phase generally began when combined enrollee and plan
payments reached $6,440 (out-of-pocket threshold). The enrollee’s share of this amount, the true
out-of-pocket threshold, was $4,550. These amounts included the enrollee’s deductible and
coinsurance payments. Once enrollees reached the catastrophic phase of the benefit, they
contributed approximately 5-percent coinsurance toward their drug costs. Of the remaining
95 percent, the sponsors were responsible for approximately 15 percent and Medicare paid the
sponsors the remaining 80 percent. This 80-percent reimbursement is called a reinsurance
subsidy. See Appendix A for a graph showing the defined standard benefit for 2010.

Prescription Drug Event Data

For every prescription filled, a plan must submit an electronic summary record, called a
prescription drug event (PDE) record, to CMS. A PDE record contains prescription drug cost
and payment data. Sponsors are required to submit PDE records, including retroactive changes,
to CMS.

Coordination of Prescription Drug Benefits and Financial Information Reporting

Tracking TrOOP costs involves coordination and communication among CMS, sponsors, and
other payers of prescription drug benefits, as well as the TrOOP facilitator. 2 The TrOOP
facilitator assists plans in coordinating enrollees’ prescription drug benefits at the point of sale.
Among other responsibilities, the TrOOP facilitator identifies costs that are reimbursed by other
payers and assists sponsors with the transfer of TrOOP-related data if an enrollee changes plans
during the coverage year.

Effective January 1, 2009, sponsors must use the Financial Information Reporting (FIR) system
to transfer TrOOP balances and gross covered drug costs whenever an enrollee makes an
enrollment change at the contract level during the coverage year. The TrOOP facilitator then
generates a FIR transaction to each prior sponsor with which the enrollee was enrolled or which
paid covered part D drug claims for the enrollee during the coverage year. Each sponsor

2
    CMS contracts with an outside organization to act as the TrOOP facilitator.



CMS Should Improve Oversight for the Transfer of True Out-of-Pocket Costs Between Plans (A-05-12-00053)   2
responds with the enrollee’s monthly gross covered drug costs and TrOOP amounts, which the
TrOOP facilitator forwards to the next sponsor. Sponsors must update their systems to
incorporate all changes to ensure the enrollee is classified in the correct phase of the benefit.

HOW WE CONDUCTED THIS REVIEW

We limited our review to the 40,758 enrollees who reached catastrophic coverage and changed
plans in calendar year 2010. These enrollees and the Federal Government combined to pay
approximately $219 million in TrOOP costs. We selected a random sample of 100 enrollees
from two strata on the basis of whether the calculated TrOOP costs at the attachment point 3
exceeded the TrOOP threshold (1) by exactly the TrOOP balances of the enrollees’ previously
enrolled plans or (2) by another amount. We reviewed the sampled enrollees TrOOP costs to
determine whether Part D sponsors transferred the costs in accordance with Federal
requirements.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix B contains the details of our audit scope and methodology, Appendix C contains our
sample design and methodology, Appendix D contains the estimated cost savings based on our
sample results, and Appendix E contains the Federal requirements related to the Part D program
and the transfer of TrOOP.

                                                    FINDINGS

Sponsors did not always transfer TrOOP costs in accordance with Federal requirements. For 24
of the 100 enrollees we reviewed, sponsors transferred TrOOP costs correctly. For the remaining
76 enrollees, sponsors did not transfer TrOOP costs in accordance with Federal requirements.
Specifically:

     •    for 27 enrollees, the TrOOP facilitator did not initiate FIR transactions to assist sponsors
          in transferring TrOOP balances between prescription drug plans;

     •    for 26 enrollees, the previous plan sponsors did not properly update FIR information
          because the sponsors processed prescription drug claims late and underreported TrOOP
          costs; and

     •    for 23 enrollees, the subsequent plan sponsors did not properly update their systems with
          reported FIR information.



3
 The attachment point is the point at which a beneficiary enters the catastrophic phase of the benefit on the basis of
accumulated TrOOP costs.


CMS Should Improve Oversight for the Transfer of True Out-of-Pocket Costs Between Plans (A-05-12-00053)                  3
We estimated that the enrollees and the Federal Government (on behalf of the enrollees)
overpaid their shares of the drug costs by $1,091,154 and $479,357 respectively, while the
sponsors underpaid their respective share of the drug costs by $1,570,511. Had the sponsors
transferred TrOOP costs in accordance with Federal requirements, the enrollees and Federal
Government would have saved a total of $1,570,511 in 2010.

These deficiencies occurred because CMS and the TrOOP facilitator did not have adequate
procedures to ensure that (1) FIR transactions are initiated to transfer TrOOP costs between
plans, (2) all FIR transactions are complete, and (3) plans are properly updating PDE records.
CMS did not provide adequate oversight of sponsors to ensure the transfer of all TrOOP costs
when enrollees changed plans.

TRUE OUT-OF-POCKET FACILITATOR DID NOT INITIATE ALL FINANCIAL
INFORMATION REPORTING TRANSACTIONS

Sponsors must coordinate benefits with each other (the Act § 1860D-23(a) and 1860D-24(a) and
42 CFR 423.464). CMS guidance 4 says the TrOOP facilitator will identify: (1) when a change
in enrollment has occurred and (2) will send a FIR transaction to each previous sponsor with
which the enrollee was enrolled or paid covered Part D drug claims for the enrollee during the
coverage year. When a sponsor realizes it paid for Part D drug claims for an enrollee enrolled in
another plan, the non-plan of record 5 sponsor should contact the TrOOP facilitator and request
inclusion in the FIR reporting.

For 27 enrollees, the TrOOP facilitator did not initiate FIR transactions to assist sponsors in
transferring TrOOP balances between prescription drug plans:

    •   Untimely disenrollments. For 22 enrollees, previous sponsors processed claims with
        service dates after disenrollment because of untimely notification of enrollment in
        another plan. CMS’ enrollment system sent enrollment notifications to plans on a weekly
        basis, which created delays between the effective dates of enrollment and plan
        notifications of disenrollments. 6 The TrOOP facilitator did not have procedures in place
        to initiate FIR transactions for these untimely disenrollments.

    •   Non-plans of record. For four enrollees, the TrOOP facilitator did not initiate manual
        FIR transactions to transfer TrOOP balances from previous to subsequent plans. Manual
        FIR transactions were necessary because CMS’s enrollment system did not show that the
        individuals’ had been enrolled in the previous plans.


4
 Medicare Prescription Drug Benefit Manual (the Manual), publication 100-18, chapter 14, Appendix C, “Part D
Sponsor Implementation Guidance on Automated TrOOP Balance Transfer.”
5
  A non-plan of record is a Part D sponsor that paid covered Part D drug claims for a Medicare beneficiary for whom
the sponsor did not have a valid and effective enrollment in the CMS system and for whom the sponsor did not
receive a final monthly payment.
6
 We discussed this issue with CMS officials and were informed that CMS had taken steps to correct this issue.
During 2011, CMS began sending enrollment notification to plans daily.


CMS Should Improve Oversight for the Transfer of True Out-of-Pocket Costs Between Plans (A-05-12-00053)          4
    •   Rejected Financial Information Reporting transaction. For one enrollee, a previous
        plan sponsor rejected a FIR transaction, so the subsequent plan did not receive the
        associated information on TrOOP costs. CMS monitors unsuccessful transfers, including
        FIR rejections, and issues compliance letters to plans for unresolved items more than 30
        days old. Once the prior plan sponsor corrects the issue causing the rejection, the TrOOP
        Facilitator can process the FIR. This rejection did not show up in CMS’s December 31,
        2010, monitoring report, and therefore the TrOOP facilitator did not initiate a new FIR
        transaction.

SPONSORS PROCESSING LATE CLAIMS AND UNDERREPORTING TRUE OUT-
OF-POCKET COSTS RESULTED IN INCOMPLETE DATA IN THE FINANCIAL
INFORMATION REPORTING SYSTEM

CMS guidance 7 states if a change in a beneficiary’s TrOOP-related data occurs outside the
scheduled FIR timing cycle, 8 the sponsor should call the TrOOP facilitator to request the
initiation of a FIR transaction. According to the guidance, CMS works with the TrOOP
facilitator to evaluate the acceptability of the plan’s FIR responses through automatic computer
edits to ensure the data are complete and valid.

For 26 enrollees, the previous plan sponsors did not accurately update FIR information because
they processed prescription drug claims late and underreported TrOOP costs. FIR transactions
contained inaccurate TrOOP balances:

    •   Late claims processing. For 17 enrollees, previous plan sponsors processed claims after
        the scheduled FIR timing cycle. Therefore, the automated FIR process did not pick up
        TrOOP costs from these claims.

    •   Underreported True Out-of-Pocket costs. For 9 enrollees, previous plan sponsors
        submitted FIR responses with underreported TrOOP costs, such as $0 balances. CMS
        automatic computer edits were not effective in ensuring that FIR responses contained
        complete TrOOP balances, as the edits do not compare FIR responses to PDE records.

SPONSORS DID NOT PROPERLY UPDATE THEIR SYSTEMS WITH DATA FROM
THE FINANCIAL INFORMATION REPORTING SYSTEM

An enrollee’s Part D coverage has an initial coverage limit on the maximum costs that may be
recognized for payment purposes including the annual deductible (the Act § 1860D-2(b)(3)).
CMS guidance states the coinsurance or copayments the person paid during the initial coverage
period in his or her former plan and what the plan paid will all count toward the deductible in the

7
 The Manual, chapter 14, Appendix C, “Part D Sponsor Implementation Guidance on Automated TrOOP Balance
Transfer.”
8
  The scheduled FIR timing cycle lasts 7 months: the TrOOP facilitator sends change inquiry transactions weekly
for 4 weeks and then monthly for an additional 6 months or until March 31st of the following year, whichever is
sooner.



CMS Should Improve Oversight for the Transfer of True Out-of-Pocket Costs Between Plans (A-05-12-00053)           5
new plan. 9 CMS guidance states sponsors must update their systems to incorporate TrOOP-
related data reported by prior plan sponsors through FIR transactions. 10

For 23 enrollees, the subsequent plan sponsors did not appropriately update PDE records with
reported FIR information:

      •   Prescription drug event not updated. For 11 enrollees, subsequent plan sponsors
          updated their claims system on the basis of reported FIR information but did not update
          the PDE information submitted to CMS.

      •   Overcharged deductibles. For nine enrollees, subsequent plan sponsors did not take
          into account prior plans’ deductible/copayment information and therefore overcharged
          the enrollee deductible. These errors are easily identifiable by reviewing PDE
          information as standard deductibles are a set amount ($310 for 2010, Appendix A).

      •   Disregarded Financial Information Reporting information. For three enrollees,
          subsequent plan sponsors disregarded the FIR information and therefore did not transfer
          TrOOP costs between plans. In these situations, the enrollees changed plans within the
          same parent organization, which made mistakes when trying to handle the transfers
          internally.

CONCLUSION

We estimate that enrollees could have saved $1,091,154 and Medicare could have saved
$479,357 had TrOOP costs been transferred properly. Of the 100 sampled enrollees, plans did
not properly transfer TrOOP costs for 76 enrollees. These deficiencies occurred because CMS
and the TrOOP facilitator did not have adequate procedures to ensure that (1) FIR transactions
are initiated to transfer TrOOP costs between plans, (2) all FIR transactions are complete, and
(3) plans are properly updating PDE records. CMS did not provide adequate oversight of
sponsors to ensure the transfer of all TrOOP costs when enrollees changed prescription drug
plans.

                                         RECOMMENDATIONS

We recommend that CMS:

      •   transfer TrOOP costs in accordance with Federal requirements for enrollees who change
          plans, which would have saved the enrollees $1,091,154 million and the Federal
          Government $479,357 in 2010 and




9
    CMS, Information Partners Can Use on: Understanding True Out-of-Pocket Costs, updated November 2011.
10
  The Manual, chapter 14, Appendix C, “Part D Sponsor Implementation Guidance on Automated TrOOP Balance
Transfer.”


CMS Should Improve Oversight for the Transfer of True Out-of-Pocket Costs Between Plans (A-05-12-00053)    6
    •   implement controls to:

            o ensure the TrOOP facilitator initiates FIR transactions to transfer TrOOP balances
              from (1) plans providing services to non-enrollees and (2) previously rejected
              FIRs that have since been corrected,

            o compare FIR to PDE records to determine which FIR transactions are incomplete
              and require plan resubmission, and

            o ensure subsequent plan sponsors are properly updating PDE records with reported
              FIR information.

                                          CMS COMMENTS

In written comments on our draft report, CMS concurred with our recommendations and
described corrective actions it had taken and planned to take.

CMS’s comments are included in their entirety as Appendix F.




CMS Should Improve Oversight for the Transfer of True Out-of-Pocket Costs Between Plans (A-05-12-00053)   7
 APPENDIX A: DEFINED STANDARD BENEFIT FOR PART D ENROLLEES IN 2010




    YTD = year to date

    Sources: Centers for Medicare & Medicaid Services, Prescription Drug Event Data Foundations
    (regional training presentation), July 2007 and The Henry J. Kaiser Family Foundation, Medicare
    Prescription Prescription Drug Benefit Fact Sheet, November 2009.




CMS Should Improve Oversight for the Transfer of True Out-of-Pocket Costs Between Plans (A-05-12-00053)   8
                    APPENDIX B: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our review covered 40,758 enrollees who changed plans and whose individual calculated
TrOOP at the attachment point was greater than $4,550. We obtained a database containing PDE
records for 199,627 enrollees who reached the attachment point and changed plans during 2010.
We eliminated 158,869 enrollees from our sampling frame for whom we calculated that the
attachment point TrOOP cost was equal to or less than the out-of-pocket threshold of $4,550 in
2010, because these items had a small risk of being transfer errors. Our revised sampling frame
contained 40,758 enrollees with a total TrOOP cost of $219,048,649.

We did not review the overall internal control structure of CMS or Medicare. Rather, we limited
our internal control review to those that related to the objective of our audit.

We conducted fieldwork at the Indianapolis field office in Indianapolis, Indiana, from August
2012 through January 2013.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed applicable Federal laws, regulations, and guidance;

    •   held discussions with CMS officials to gain an understanding of and identify policies and
        procedures related to the transfer of TrOOP costs between plans;

    •   analyzed PDE records to identify 40,758 enrollees whose individual calculated TrOOP
        costs exceeded $4,550 at the attachment point and changed plans during 2010;

    •   selected a stratified random sample of 100 enrollees (Appendix C) and:

            o calculated TrOOP cost in accordance with Federal requirements and the plans’
              explanation of coverage and

            o compared PDE records submitted to CMS by the plans to FIR records maintained
              by the TrOOP facilitator;

    •   obtained additional support from the plans as to why each transfer error happened; and

    •   estimated the total amount of overpayment, underpayment, or misallocation of payments
        among the plans, the enrollees, and Medicare because of TrOOP costs not transferred
        (Appendix D).

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain


CMS Should Improve Oversight for the Transfer of True Out-of-Pocket Costs Between Plans (A-05-12-00053)   9
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




CMS Should Improve Oversight for the Transfer of True Out-of-Pocket Costs Between Plans (A-05-12-00053)   10
                 APPENDIX C: SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population consisted of all enrollees whose individual calculated TrOOP costs exceeded
$4,550 at the attachment point and changed plans during our audit period of January 1 through
December 31, 2010.

SAMPLING FRAME

The sampling frame was an Access database file containing PDE information for 40,758
enrollees that changed plans and whose individual calculated TrOOP costs at the attachment
point was greater than $4,550. The total TrOOP cost for these 40,758 enrollees was
$219,048,649.

SAMPLE UNIT

The sample unit was an enrollee.

SAMPLE DESIGN

We used a stratified random sample, defined as follows:

        Stratum 1: the 16,464 enrollees whose individual calculated TrOOP cost at the
        attachment point was greater than the TrOOP threshold by exactly the amount of TrOOP
        balances from prior plans.

        Stratum 2: the 24,294 remaining enrollees whose individual calculated TrOOP cost at
        the attachment point was greater than the TrOOP threshold by amounts different than
        prior plan balances.

SAMPLE SIZE

We selected and reviewed a random sample of 30 enrollees from Stratum 1 and 70 enrollees
from Stratum 2.

SOURCE OF RANDOM NUMBERS

We used the Office of Inspector General, Office of Audit Services (OAS), statistical software to
generate the random numbers.

ESTIMATION METHODOLOGY

We used the OAS statistical software to estimate the amounts the plan owes the Federal
Government and enrollees as a result of not properly transferring TrOOP costs.




CMS Should Improve Oversight for the Transfer of True Out-of-Pocket Costs Between Plans (A-05-12-00053)   11
                      APPENDIX D: SAMPLE RESULTS AND ESTIMATION

                           Table 1: Sample Results for Plan Underpayments


                                                                                  Number of         Value of Plan
                                   Value of          Sample       Value of       Plan Under-           Under-
Stratum      Frame Size             Frame             Size        Sample          payments           payments
   1            16,464            $86,037,795           30        $154,557            28               $1,214
   2            24,294            133,010,854           70         378,298            48                2,606
  Totals        40,758           $219,048,649          100        $532,855            76               $3,820

                           Table 2: Estimated Amount for Plans Underpaid
                        (Limits Calculated for a 90-percent Confidence Interval)

                                                                      Total Plans
                                      Overall                         Underpaid
                           Point Estimate                             $1,570,511
                           Lower Limit                                $1,096,974
                           Upper Limit                                $2,044,047


           Table 3: Sample Results for Enrollee and Government Over/Underpayments

                        Number of               Value of          Number of          Value of
                         Enrollee               Enrollee         Government         Government
                          Over-                  Over-           Over/Under-        Over/Under-
               Stratum Payments 11              Payments          Payments           Payments
                  1        25                    $1,586              28                -$373
                  2        38                       636              48                1,971
                 Totals    63                    $2,222              76               $1,598

              Table 4: Estimated Amounts for Enrollees and Government Overpaid
                      (Limits Calculated for a 90-percent Confidence Interval)

                                                      Total Enrollees          Total Government
                         Overall                        Overpaid                   Overpaid
              Point Estimate                           $1,091,154                  $479,357
              Lower Limit                                 505,378                   -205,880
              Upper Limit                              $1,676,931                $1,164,593


  11
    The reason there are fewer enrollee overpayments than errors is 13 enrollee payments were 100% subsidized by
  the Federal Government, so these errors did not result in enrollee overpayments.


  CMS Should Improve Oversight for the Transfer of True Out-of-Pocket Costs Between Plans (A-05-12-00053)          12
                          APPENDIX E: FEDERAL REQUIREMENTS

FEDERAL REQUIREMENTS FOR MEDICARE PART D PRESCRIPTION DRUG
PROGRAM

Pursuant to 42 CFR § 423.104(d)(5), once an enrollee’s incurred costs exceed the annual out-of-
pocket threshold, the enrollee’s cost-sharing is the greater of either the copayments designated by
the enrollee’s plan or five percent of actual cost (which is known as “coinsurance”).

The Manual, chapter 14, section 50.4, states that sponsors must correctly calculate the TrOOP
costs to properly adjudicate enrollee claims.

FEDERAL REQUIREMENTS FOR INITIATING FINANCIAL INFORMATION
REPORTING TRANSACTIONS

Sections 1860D-23(a) and 1860D-24(a) of the Act require sponsors to coordinate benefits with
other sponsors.

The Manual, section 30.4, requires a contractor to identify costs that are being reimbursed by
other payers and facilitate the transfer of TrOOP-related data when an enrollee changes
enrollment during the coverage year.

The Manual, section 50.9.1, states effective January 1, 2009, Part D sponsors must use the new
National Council of Prescription Drug Programs FIR standard to transfer TrOOP balances and
gross covered drug costs whenever a beneficiary makes an enrollment change at the contract-
level during the coverage year. An updated version of the CMS automated TrOOP balance
transfer implementation guidance issued by CMS on October 20, 2008, is included as
Appendix C.

According to the Manual, Appendix C, “Part D Sponsor Implementation Guidance on
Automated TrOOP Balance Transfer,” the TrOOP cost threshold and gross covered drug cost
must be transferred between Part D plans if an enrollee transfers plans at any time before the end
of the coverage year. The TrOOP facilitator will identify when a change in enrollment at the
contract level has occurred and will generate a FIR transaction to each prior sponsor with which
the beneficiary was enrolled or which paid covered part D drug claims for the beneficiary during
the coverage year.

The Manual, Appendix C, “Part D Sponsor Implementation Guidance on Automated TrOOP
Balance Transfer,” further states a non-plan of record is a Part D sponsor that paid covered
Part D drug claims for a Medicare beneficiary for whom the sponsor did not have a valid and
effective enrollment in the CMS system and for whom the sponsor did not receive final monthly
payment. TrOOP-related data must also be transferred between Part D plans when a Part D plan
other than the plan of record (i.e., a non-plan of record) paid for covered Part D drug costs as a
primary payer and subsequently becomes aware that the beneficiary is enrolled in another Part D
plan. In situations in which the TrOOP facilitator is unable to identify the existence of a
non-plan of record, for the TrOOP data to be transferred, the non-plan of record sponsor must
contact the TrOOP facilitator and request inclusion in the FIR reporting.


CMS Should Improve Oversight for the Transfer of True Out-of-Pocket Costs Between Plans (A-05-12-00053)   13
FEDERAL REQUIREMENTS FOR INCOMPLETE FINANCIAL INFORMATION
REPORTING INFORMATION

Pursuant to 42 CFR § 423.505(k)(2), a part D sponsor must certify that the information CMS
relies on in determining payment is accurate, complete, and truthful and acknowledge that this
information will be used to obtain Federal reimbursement.

The Manual, section 50.4, states that Part D sponsors are ultimately responsible for accurately
tracking TrOOP costs.

The Manual, Appendix C, Part D Sponsor Implementation Guidance on Automated TrOOP
Balance Transfer, states Part D sponsors must track TrOOP-related data for their months of
coverage for beneficiaries who disenroll during the coverage year and report these data. After
disenrollment, change inquiry transactions will be sent weekly for a 4-week period, then monthly
for an additional 6 months or until March 31st of the following year, whichever is sooner. If a
change in a beneficiary’s TrOOP-related data occurs outside the scheduled timing cycle, the
sponsor should call the TrOOP facilitator’s help desk call center and request that a FIR
transaction be initiated.

CMS will work with the TrOOP facilitator to define a set of business rules for evaluating the
acceptability of sponsor FIR responses; these will be limited to automatic computer edits to
verify that there are no missing/invalid data elements. When the TrOOP facilitator suspends a
FIR response transaction as unacceptable (e.g., if the accumulated TrOOP cost reported for a
month is a negative number), the sponsor must make the necessary changes and, once made, the
TrOOP facilitator will re-initiate the transaction.

FEDERAL REQUIREMENTS FOR SPONSORS UPDATING SYSTEMS WITH
FINANCIAL INFORMATION REPORTING INFORMATION

Section 1860D-2(b)(3) of the Act states an enrollee’s Part D coverage has an initial coverage
limit on the maximum costs that may be recognized for payment purposes including the annual
deductible. CMS guidance, Information Partners Can Use on: Understanding True Out-of-
Pocket Costs (updated November 2011), states the coinsurance or copayments the person paid
during the initial coverage period in his or her former plan and what the plan paid will all count
toward the deductible in the new plan.

Pursuant to 42 CFR § 423.505(k)(2), a part D sponsor must certify that the information CMS
relies on in determining payment is accurate, complete, and truthful and acknowledge that this
information will be used for the purposes of obtaining Federal reimbursement.

The Manual, Appendix C, “Part D Sponsor Implementation Guidance on Automated TrOOP
Balance Transfer,” states sponsors must also receive FIR transactions reporting TrOOP-related
data reported by prior plan sponsors through the TrOOP facilitator, update their systems to




CMS Should Improve Oversight for the Transfer of True Out-of-Pocket Costs Between Plans (A-05-12-00053)   14
incorporate these data, and recalculate, as necessary, any prior claims affected by changes in the
TrOOP accumulators. 12




12
  A TrOOP accumulator is the sum of an enrollee’s TrOOP costs year-to-date and is used by sponsors to help
determine where the enrollee is in the benefit and to appropriately process claims.


CMS Should Improve Oversight for the Transfer of True Out-of-Pocket Costs Between Plans (A-05-12-00053)      15
                                         APPENDIX F: CMS COMMENTS 


(''""'~ 	   DEPARTMENT OF HEALTH & HUMAN SERVICES                                              Centers for Medicare & Medicaid Services

~~~~S,_
                                                                                               Administrator
                                                                                               Washington, DC 20201




          DATE:                OCT 3 1 2013
          TO:              Daniel R. Levinson
                           Inspector General

          FROM: 	          Marilyn Tavenne~,'.........,..,..
                           Administrator

          SUBJECT: 	 Office oflnspector General (OIG) Draft Report: CMS Should Improve Oversight
                     for the Transfer ofTrue Out-of-Pocket Costs Between Part D Plans (A-05-12­
                     00053)


          The Centers for Medicare & Medicaid Services (CMS) appreciates the opportunity to review and
          comment on the above-referenced OIG draft report. The purpose of this review was to determine
          whether Medicare Part D sponsors transferred true out-of-pocket (TrOOP) costs in accordance
          with Federal requirements for enrollees who change plans during the 2010 coverage year.

          Title I of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003
          amended Title XVIII of the Social Security Act (the Act) by establishing the Medicare Part D
          prescription drug benefit. Under Part 0, which began January 1, 2006, sponsors are responsible
          for tracking and transferring TrOOP-related costs as enrollees change plans throughout the
          coverage year. The TrOOP (now Part D Transaction) Facilitator is a CMS contractor that assists
          sponsors with the transfer of TrOOP-related data if an enrollee changes plans during the
          coverage year. Beginning January 1, 2009, sponsors must use the automated TrOOP balance
          transfer process' Financial Information Reporting transaction to transfer TrOOP balances and
          gross covered drug costs whenever an enrollee makes an enrollment change during the coverage
          year.

           We appreciate the OIG's efforts in working with CMS in identifying vulnerabilities in the
           Medicare program. Our response to each of the OIG recommendations follows.

           OIG Recommendation

           The OIG recommends CMS transfer TrOOP costs in accordance with Federal requirements for
           enrollees who change plans, which would have saved the enrollees $1 ,091 , 154 million and the
           federal government $479,357 in 2010.




          CMS Should Imp rove Oversig ht fo r the ojTrue Out-ofPocket Costs Between Plans (A -05-12-00053)               16
Page 2 - Daniel R. Levinson


CMS Response

The CMS concurs with this recommendation and has implemented a number of systems changes
and process improvements related to this recommendation. Beginning January 1, 2013, CMS
changed the compliance timeframe for sponsors to successfully transfer TrOOP balances,
reducing the period from 30 days to 15 days. Given the new 15-day compliance period, CMS
worked with the National Council of Prescription Drug Program (NCPDP) Work Group 1
Financial Information Reporting (FIR) Task Group to revise the timing of the FIR transactions to
increase the number of the transactions sent during the 15-day compliance period.

Additionally, to enable sponsors to report data changes that occur late in the current year or in
the early months of the subsequent year, a change was made to the timing of the last FIR
transaction sequences. As a result, 3 end-of-year FIR sequences are sent for all enrollees on
December 1 of the current year and January 15 and February 28 of the subsequent year.
Sponsors needing to update beneficiaries' TrOOP accumulator data after these year-end
transactions may submit a special request to the transaction facilitator during the period March 1
through May 31 for a FIR transaction series to be initiated for those beneficiaries. The revised
timing provides additional opportunity to transfer updated beneficiaries' TrOOP accumulator
data and for subsequent plans to consider these changes in administering the Part D benefit.

 The CMS working with the NCPDP FIR Task Group and the Transaction Facilitator created a
 new Daily Cumulative FIR Aging Report to permit sponsors and their FIR processors to identify
 and resolve problems. This new report identifies for each sponsor all beneficiaries for whom
 balances have not successfully transferred and provides additional information to assist sponsors
 in complying with CMS' requirements.

 Finally, in conjunction with CMS' redesign of our Medicare Advantage-Prescription Drug
 (MARx) system implemented in 2011, CMS implemented a daily transaction reply report
 (DTRR) that reports enrollment changes to sponsors on a daily, instead of the previous weekly,
 basis. This change significantly improved the timeliness of the data to sponsors and permits
 sponsors to update their systems in a more timely manner and reduce the number of FIR rejects.

 OIG Recommendation

 The OIG recommends CMS implement controls to ensure the TrOOP Facilitator initiates FIR
 transactions to transfer TrOOP balances for (1) plans providing services to non-enrollees and (2)
 previously rejected FIRs that since have been corrected.

 CMS Response

 The CMS concurs with this recommendation. CMS is currently working with the NCPDP FIR
 Task Group and the Transaction Facilitator to develop an NCPDP White Paper detailing the FIR­
 related responsibilities of the plans that provided services to non-enrollees (known as non-plans
 of record) and the processes in place to permit their inclusion in the FIR transaction sequence.
 We believe the changes to the timing of the FIR transactions described above address the second
 part of this recommendation. Because sponsors cannot initiate a FIR transaction, a sponsor




CMS Should Improve Oversightfo r the ofTrue Out-ofPocke t Cos ts B etween Plans (A -05-1 2-00053)   17
Page 3 - Daniel R. Levinson


 cannot know that a previously rejected transaction has been corrected until the next transaction is
 received and the sponsor responds successfully. Increasing the number of transactions during the
 15 days following the change in enrollment also increases the number of opportunities sponsors
 have to correct the problem causing the reject and successfully transfer the data in a timely
 manner.

 OIG Recommendation

 The OIG recommends CMS implement controls to compare FIR to PDE records which FIR
 transactions are incomplete and require plan resubmission.

 CMS Response

 The CMS concurs with this recommendation. CMS' one-third audit protocol reviews a complete
 PDE history for a sample of beneficiaries at all stages of the benefit. For beneficiaries in the
 sample who transferred in, the audit examines the beginning TrOOP balance. The protocol also
 includes a separate test for members who have transferred into the plan to determine if the
 sponsor properly updated/applied the accumulators and the balances agree with the accumulators
 reported by the Transaction Facilitator on the FIR transaction.

 OIG Recommendation

 The OIG recommends CMS implement controls to ensure subsequent plan sponsors are properly
 updating PDE records with reported FIR information.

 CMS Response

 The CMS concurs with this recommendation. We are considering a regulatory change that
 would codify our policy that sponsors report and accept the TrOOP-related data in real-time and
 apply these costs in the sponsors' administration of the Part D benefit in accordance with
 processes specified by CMS. We believe that imposing this requirement in regulation would
 strengthen our enforcement ability.

 Again, we appreciate the opportunity to comment on this draft report and look forward to 

 working with OIG on this and other issues. 





CMS Should Improve Oversightfo r the of True Out-ofPocke t Cos ts B etween Plans (A -05-12-00053)   18
